531
Filed March 207-2019

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES-GENERAL

ROBERT J. JAFFE,
Plaintiff

No..2:18-CV-09998
RGK-FFM

BRAD SHERMAN,
US CONGRESSMAN, et al
Defendant
CIVIL MINUTES-GENERAL
Present: The Honorable R. Gary Klausner,
United States District Judge
Deputy Clerk
Sharon L. Williams,
Not Reported
Court Reporter/Recorder:
N/A
Tape No.
Not Present
Attorneys for Plaintiff:
Not Present
Attorneys for Defendant:
Proceedings: (IN CHAMBERS): Order Re:'
Defendant’s Motion to Dismiss (DE-11)

532
I. INTRODUCTION
On November, 29 2018, Robert -Jaffe, M.D.
(filed a pro se Complaint against Congressman Brad
Sherman (“Defendant”), a United States
Representative for the Thirtieth Congressional
District of California (DC 1).
This lawsuit arose from the 1994 termination
of Plaintiffs exhaustion of administrative procedures
appealing that decision. The Complaint advances
three causes of action: (1) to set aside the judgement
for fraud upon the court pursuant to Federal Rules of
Civil Procedure (“Rule”) 60(b); 2) fraudulent deceit;
and (3) fraud/intentional misrepresentation under
California Civil Code §1572. Over the last eighteen
years, Plaintiff has filed a series of related suits in
state and federal courts, all of which have been
dismissed (Compl. Iff26-66, ECF No. 1).
Presently before the Court is Defendant’s
Motion to Dismiss (DE 11).1 For the following
reasons, the Court GRANTS Defendant’s Motion.
II. FACTUAL BACKGROUND
Plaintiff, appearing pro se, alleges the
following:
Plaintiff was employed as an attending
physician by Kaiser Foundation Hospital (“the
Hospital’) from 1977 to 1994. (Compl.f 11.) In
August 1994, the for

533
1 Plaintiffs Opposition was stricken as untimely.
(See ECF No. 17)
Hospital voted to terminate Plaintiff s employment
for
reasons not made clear in the Complaint. (See id. THf
23-25). Plaintiff subsequently exhausted the
Hospital’s administrative procedures for appealing
the termination. However, the Hospital’s relevant
decision-makers upheld Plaintiffs termination at
three different hearing stages. (See id.^fTf 23-25).
Plaintiff later challenged his termination in
California state courts. In 2001, Plaintiff filed a Writ
of Mandamus in Los Angeles Superior Court to
overturn the Hospital’s decision. (Id. f 26.). The
court upheld the Hospital’s decision and denied
Plaintiffs Writ of Mandamus. (See id.T|34.). The
California Court of Appeal subsequently affirmed the
lower court’s ruling and denied Plaintiff s petition for
hearing (Id.\ 36). The California Supreme Court
also denied Plaintiffs petition for review. (Mot. To
Dismiss 12:9 n.l, ECF No.11).
In December 2006, Plaintiff filed an
independent action in the Central District naming
the state and appellate court judges as defendants.
(Compl. If 38.) In that action, Plaintiff alleged that
the state jurists upheld the Hospital’s decision
through acts of “fraud on the court” without review of
the Hospital’s due process violations. (Id. If 38.) The
district court subsequently dismissed the complaint
for lack of subject matter jurisdiction and the Ninth
Circuit affirmed the dismissal. In October 2011,
Plaintiff filed a second district court complaint to set

534
aside the state court judgment for fraud on the court
under Rule 60(b). (Id. 1 43)) Again, Plaintiff named
as defendants District Court judge and the three
Ninth Circuit justices who had denied his previous
appeal. (Id. 143.) The Supreme Court denied
certiorari in May 2014. (Id. 152.)
In February 2015, Plaintiff filed another
complaint in the Central District of California,
naming as defendants all nine justices of the
Supreme Court. (See id. 1 52-54.) Plaintiffs
complaint was dismissed, and the Ninth Circuit
summarily affirmed the dismissal. (Id. 1 54.)
Plaintiff again petitioned the Supreme Court for writ
of certiorari and the Court denied the petition in May
2017. (Id. 11 65-66.)
As a result, Plaintiff emailed Defendant on
four different occasions in 2017 requested
congressional oversight over the alleged acts of fraud
on the courts, including the U.S. Supreme Court. (Id.
11 71-72.) Plaintiff also requested that Defendant
direct Congress and/or the U.S. Supreme Court to
hear Plaintiffs case. Defendant’s counsel replied to
Plaintiff s email in November 2017, explaining that
Plaintiffs issues are “legal matter in which
[Defendant’s] office cannot intervene”. (Id. 1 75.) In
the two following emails in January 2018, Plaintiff
was referred to Defendant counsel’s intial replay.
(Id. 1 77.)
On November 29, 2019, Plaintiff filed the
instant action against Defendant.

535
III. JUDICIAL STANDARD
The court may dismiss a case under Rule
12(b)(6) when the plaintiffs allegations fail to state a
claim upon which relief can be granted. Fed. R. Civ.
P. 12(b)(6). To survive a montion to dismiss, a
complaint must contain sufficient factual matter,
accepted as true, to “state a claim to relief that is
plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662,
678, (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007). A claim is facially plausible if
the plaintiff alleges enough facts to draw reasonable
inference that the defendant is liable. Id. While a
plaintiff does not need to provide detailed factual
allegations, he must please more than mere legal
conclusions.
When ruling on a Rule 12 (b)(6) motion, the
court generally must accept the allegations in the
complaint as true and construe them in the light
most favorable to the non-moving party. Cahill v.
Liberty Mut. Ins. Co., 80 F.3d 336, 337-38 (9th Cir.
1966). However, the court need not accept as true
“[tjhreadbare receitals of the elements of a cause of
action”. Iqbal, 556 U.S. at 678.
A motion to dismiss under Rule 12(b)(1) may
be “facial” or “factual”. See Sage Air for Everyone v.
Meyer,
373 F.3d 1035, 1039 (9th Cir. 2004). In a facial
attack, the challenger asserts the allegations
contained in a complaint are insufficient on their face
to invoke federal jurisdiction. Id. The court must
assume the factual allegations in the complaint are
true and construe them in the light most favorable to

536
the plaintiff. See Warren v. Fax Worldwide, Inc. 328
F. 3d 1136,1139 (9th Cir. 2003). However, the court
need not accept as true legal conclusions pled as
factual allegations. Id. A Rule 12(b)(6)(l) motion will
be granted is, on its face, the complaint fails to allege
grounds for federal subject matter jurisdiction as
required by Rule 8(a). See id.
Finally, under Rule 60(b), district courts bave
discretion to relieve a party from judgment, order, or
proceedings upon a showing of:
(1). mistake, inadvertence, surprise, or
excusable neglect; (2) newly discovered
evidence that, with reasonable diligence, could
not have been discovered in time to move for a
new trial under Rule 59(b); (3) fraud,
misrepresentation, or misconduct by an
opposing party; (4) the judgment is void; (5)
the judgment has been satisfied, released or
discharged..... ; (6) any other reason that
justifies relief.
Fed. R. Civ. P. 60(b); see also Gonzales v. Crosby,
54f5 U.S. 524, 528-29 (2005); Sch. Dist. No IJ,
Mulmomah Cty. V. ACandS, Inc., 5 F.3d 1255, 126263 (9th Cir. 1993). Rule 60(b)(6) requires a movant to
demonstrate “extraordinary circumstances”
justifying the reopening of a judgement or order.
Gonzales, 545 U.S. at 535-536.

537
IV. DISCUSSION
Defendant moves to dismiss Plaintiffs
Complaint because Plaintff fails to allege sufficient
facts to constitute a cause of action under Rules
12(b)(1), 12(b)(6), and 60(b). After reviewing the
Complaint, Defendant’s arguments, and applicable
law, the Court finds that Defendant’s contentions are
viable challenges to Plaintiffs claims. The Court
need not delve into the merits of these arguments,
however, because Plaintiff has failed to oppose
Defendant’s Motion. Local Rule 7-12 provides that
“the court may decline to consider any....document
not filed within the deadline set by order or local
rule. The failure to file any required document or
failure to file it within the deadline, may be deemed
consent to the granting or denial of the motion.
“C.D. Cal. L.R. 7-12. Thus the Court deems
Plaintiffs untimely opposition to Defendant’s Motion
as consent to granting the Motion.
V, CONCLUSION
Accordingly, the Court GRANTS Defendant’s Motion
to Dismiss, with prejudice.
IT IS SO ORDERED.
Initials of Preparer

538

Filed October 18, 2019
MOLLY DWYER
CLERK

U.S. COURT OF APPEALS
UNITED STATES COURT OF APPEALS
FOR THE NINTH DISTRICT

ROBERT J. JAFFE, MD,
Plaintiff - Appellant

No. 19-55364
D.C. No. 2:18-cv-09998RGK-FFM
U.S. District Court for
Central California, Los
Angeles

BRAD SHERMAN, U.S
CONGRESSMAN
Defendant - Appellee

MANDATE

The judgment of this court, entered August 26, 2019,
takes effect this date.
This constitutes the formal mandate of this court
issued pursuant to Rule 41(a) of the Federal Rules of
Appellate Procedure.FOR THE COURT
MOLLY DWYER
CLERK OF COURT
By: Rebecca Lopez Deputy Clerk
Ninth Circuit Rule
27-7

539

Filed October 18, 2019
MOLLY DWYER CLERK
U.S. COURT OF APPEALS
UNITED STATES COURT OF APPEALS
FOR THE NINTH DISTRICT

ROBERT J. JAFFE, MD,
Plaintiff - Appellant

No. 19-55364
D.C. No. 2:18-cv09998-RGK-FFM
U.S. District Court
for the Central
California, Los

Angeles
BRAD SHERMAN, U.S
CONGRESSMAN
Defendant - Appellee

ORDER

Before TASHIMA, M, SMITH and BENNET, Circuit
judges.
Appellant’s extension of time to oppose the motion
for summary affirmance is granted (Docket entry No.
6). The Opposition has been filed.

540

A review of the record, the opening brief and the
responses to the motion for summary affirmance
indicates that the questions raised in this appeal are
so insubstantial as to not require further argument.
See United States v. Hooten, 693 F,2d 857, 858 (9th
Cir. 1982) stating standard; Johnson u. Riverside
Healthcare Sys., LP, 534 F. 3d 1116, 1121 (9th Cir,
2008) (court may affirm on any ground supported by
the record,)
WE THEREFORE GRANT appellee’s motion for
summary affirmance (docket entry No, 4)
AFFIRMED.
AT/MOATT

/

Additional material
from this filing is
available in the
Clerk's Office.

